No. 20-1732
IN THE

Supreme £Court of the lniteb =tates
THOMAS BRYANT JR.,
Petitioner,
V.

UNITED STATES OF AMERICA,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

CERTIFICATE OF SERVICE
I, Roy T. Englert, Jr., a member of the Bar of this Court, certify that on this
15th day of July. 2021, I caused to be served by U.S. Mail three copies of the Brief of
FAMM as Amicus Curiae in Support of Certiorari on each of the following counsel:
Kan non K. Shanm ugam

Counsel of Record

Paul, Weiss, Rifkind, Wharton &
Garrison LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
ks ha nm ugam@p a ul weiss. com
Counsel for Petitioner

Elizabeth B. Prelogar
Counsel of Record
Acting Solicitor General
United States Department
Justice
950 Pennsylvania Ave. N.W.
Washington, DC 20530-0001
(202) 514-2217

Supreme Ct Briefs@USDOJ.gov
Counsel for Respondent

I further certify that all parties required to be served have been served.

of

